                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-MERO-14-06                                   Office of Audits                                  December 2013




        Audit of the Contract Closeout Process
            for Contracts Supporting the
                  U.S. Mission in Iraq




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General ' s (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State (Department) and the Broadcasting Board of Governors.

        This report addresses whether the Depa11ment effectively and efficiently closed out
contracts supporting the U.S. Mission in Iraq. The report is based on interviews with employees
and offi cials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant Kearney & Company, P. C., to
perform this audit. The contract required that Kearney & Company perform its audit in
accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General of the United States. Kearney & Company' s report is included.

        Kearney determined that the Contract Closeout Teams and the Contracting Officers had
not consistently met Federal and Department contract closeout requirements fo r the 11 5
Iraq-related contract task orders included in the review.

        OIG evaluated the nature, extent, and timing of Kearney & Company's work; monitored
progress throughout the audit; reviewed Kearney & Company' s supporting documentation;
evaluated key judgments; and performed other procedures as appropriate. OIG concurs with
Kearney & Company' s findings, and the recommendations contained in the report were
developed on the basis of the best knowledge available and were discussed in draft form with
those individuals responsible for implementation. OIG' s analysis of management's response to
the recommendations has been incorporated into the report. OIG trusts that this report will result
in more effective, efficient, and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                              Norman P. Brown
                                              Acting Assistant Inspector General
                                                for Audits
                                        UNCLASSIFIED



                                                          1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                          PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




Audit of the Contract Closeout Process for Contracts Supporting the U.S. Mission in Iraq


Office of Inspector General
U.S. Department of State
Washington, D.C.


Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) has
performed an audit of the contract closeout process for contracts supporting the U.S. Mission in
Iraq. This performance audit, performed under Contract No. SAQMMA09D0002, was designed
to meet the objective identified in the report section titled “Audit Objective” and further defined
in Appendix A, “Scope and Methodology” except where specific limitations were noted.

We conducted this performance audit from November 2012 through May 2013 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective. The
purpose of this report is to communicate the results of our performance audit and its related
findings and recommendations.

We appreciate the cooperation provided by personnel in Department offices during the audit.




Kearney & Company, P.C.
Alexandria, Virginia
May 10, 2013




                                        UNCLASSIFIED
                    UNCLASSIFIED




Acronyms
A/LM/AQM   Bureau of Administration, Office of Logistics Management, Office
           of Acquisitions Management
A/OPE      Bureau of Administration, Office of the Procurement Executive
CCT        Contract Closeout Team
CO         contracting officer
COR        contracting officer’s representative
DCAA       Defense Contract Audit Agency
DOSAR      Department of State Acquisition Regulation
FAR        Federal Acquisition Regulation
FPDS-NG    Federal Procurement Data System–Next Generation
GFMS       Global Financial Management System
OIG        Office of Inspector General




                    UNCLASSIFIED
                                                          UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................3

Audit Objective ................................................................................................................................4

Audit Results ..................................................................................................................................5
       Contract Closeout Requirements Were Not Met Consistently ............................................5

Appendices
      A. Scope and Methodology................................................................................................17
      B. Federal Acquisition Regulation Contract Closeout Requirements and Contracting
         Officer Responsibilities .................................................................................................25
      C. Contract Closeout Checklist ..........................................................................................26
      D. Bureau of Administration, Office of Logistics Management, Office of Acquisitions
         Management, Response ................................................................................................28
      E. Bureau of Administration, Office of the Procurement Executive, Response ................29




                                                          UNCLASSIFIED
                                        UNCLASSIFIED


                                    Executive Summary
       Since March 2003, the Department of State (Department) has contracted for goods and
services to support the U.S. Mission in Iraq. According to USASpending.gov, the Department’s
contracting activity for Iraq increased from 50 contract actions, totaling approximately
$311 million in FY 2004, to 1,604 contract actions, totaling approximately $1.3 billion in
FY 2012. Contract closeout, which is the final phase in a contract’s life cycle, is a key step in
ensuring that the Department has received the appropriate goods and services at the agreed-upon
price.

        The audit objective was to determine whether the Department had effectively and
efficiently closed contracts supporting the U.S. Mission in Iraq. An external audit firm, Kearney
& Company, P.C. (Kearney), acting on behalf of the Office of Inspector General (OIG),
performed this audit. Kearney specifically determined whether the Department had complied
with Federal and Department contract closeout requirements and whether the Department had
reviewed and identified funds remaining on physically completed contracts that could be
deobligated.

       Kearney determined that the contract closeout teams (CCT) and the contracting officers
(CO) had not consistently met Federal and Department contract closeout requirements for the
115 Iraq-related contract task orders included in the review. Specifically,

       •   contract files for 33 of the 115 task orders could not be located,
       •   contract files for five of the 115 task orders did not include the data needed to
           determine physical completion,
       •   evidence for initial funds review was missing for 43 of the 53 physically completed
           task orders,
       •   contract closeout timelines were not met for 25 of the 53 physically completed task
           orders, and
       •   contract files for all 30 of the closed task orders were missing required closeout data.

       These issues occurred because the Department had not established comprehensive
procedural guidance for contract closeout or ensured that existing guidance was accurate. In
addition, the Department did not have a system in place for tracking the contract and task order
periods of performance so that the COs could identify and monitor contracts and task orders
nearing physical completion. As a result, the risk of financial mismanagement was increased,
and as of May 10, 2013, $38.7 million had not been deobligated timely and had expired,
preventing its use for other purposes.

       OIG made nine recommendations to the Bureau of Administration, which included
recommendations for the Department to revise guidance to include detailed and comprehensive
procedures for closing contracts, require COs to insert Federal Acquisition Regulation (FAR)
Clause 52.216-7 (“Allowable Cost and Payment”) in all cost-reimbursable contracts, and reflect
the proper steps for requesting an incurred cost audit. OIG also recommended that the


                                                 1

                                        UNCLASSIFIED
                                     UNCLASSIFIED


Department develop and implement an automated application to track contract status from award
through contract closeout and an e-Filing policy and document management system to provide
effective contract file management.

       The Bureau of Administration, Office of Logistics Management, directed its response to
the Bureau of Administration, Office of Logistics Management, Office of Acquisitions
Management (A/LM/AQM), and the Bureau of Administration, Office of the Procurement
Executive (A/OPE). Based on responses provided by A/LM/AQM (see Appendix D) and A/OPE
(see Appendix E) on November 7, 2013, OIG considers Recommendations 1–3 and 5–8
resolved, pending further action, and Recommendations 4 and 9 unresolved. Management’s
responses and OIG’s replies to those responses are included after each recommendation.




                                              2

                                      UNCLASSIFIED
                                                 UNCLASSIFIED


                                                   Background
         Since March 2003, the Department has contracted for goods and services to support the
U.S. Mission in Iraq. According to USASpending.gov, the Department’s contracting activity for
Iraq increased from 50 contract actions, totaling approximately $311 million in FY 2004, to
1,604 contract actions, totaling approximately $1.3 billion in FY 2012. Contract closeout, which
is the final phase in a contract’s life cycle, is a key step in ensuring that the Department has
received the appropriate goods and services at the agreed-upon price. Contract closeout is
triggered by the physical completion of a contract. According to FAR Clause 4.804-4, a contract
is considered physically complete when the U.S. Government has issued a contract termination
notice to the contractor or when the following three actions have occurred:

         •   The contractor has completed the required deliveries, and the Government has
             inspected and accepted the goods and materials.
         •   The contractor has completed all services, and the Government has accepted those
             services.
         •   All option provisions 1 have expired, or the Government has given the contractor
             notice of complete contract termination.

        Once the contract is physically complete, the CO is required to conduct an initial funds
status review and determine whether the contract has excess funds that should be deobligated.
The CO then initiates administrative action in accordance with Federal and Department contract
closeout guidance.

Contract Closeout Guidance

       Contract closeout guidance is contained in the FAR, Part 4; the Department of State
Acquisition Regulation (DOSAR) Part 604; the Foreign Affairs Handbook (FAH); and the
Department’s Overseas Contracting and Simplified Acquisition Guidebook (Overseas
Guidebook). FAR 4.804-5 contains a list of 15 administrative actions that must be completed
and documented during the closeout process if applicable (see Appendix B). Once the CO
confirms that the applicable administrative actions have been completed, a contract completion
statement is prepared and the contract is designated as closed. FAR 4.804-1 also contains
timelines for closing out different types of contracts. Those timelines range from 6 months for
fixed-price contracts to 36 months for cost-reimbursable contracts. Cost-reimbursable contracts
generally take longer to close because the CO must wait for the final incurred cost audit 2 to be
completed, as the results of that audit could affect the contractor’s final payment. For base

1
  “Options” allow the Government to extend contract terms, to include additional quantities or work effort, without
further negotiation or further agreement with the contractor.
2
  An incurred cost audit is conducted to ensure that the contractor correctly allocated its indirect costs, such as
overhead and general and administrative costs, to the contract. Because the contractor estimated those costs at the
beginning of its fiscal year, the actual cost allocation may be more or less than what was billed to the contract. If the
cost allocation is more, the Department may owe the contractor additional funds; if the cost allocation is less, the
contractor may owe the Department additional funds.

                                                           3

                                                 UNCLASSIFIED
                                       UNCLASSIFIED


contracts that have multiple task orders, the CO does not need to wait for completion of the base
contract before closing the task orders; the task orders can be closed individually as they are
physically completed. Closing task orders individually can result in the timely identification of
unexpended funds that could potentially be used for other purposes.

       Additional Department guidance is in 14 FAH-2 H-570, which contains limited guidance
on contract closeout roles and responsibilities and dollar thresholds for reporting contractor
performance, and in the Overseas Contracting and Simplified Acquisition Guidebook (Overseas
Guidebook), which contains more specific guidance and examples of documents needed to
properly close out a contract or task order. The Overseas Guidebook was developed to aid
overseas posts in performing contracting actions because of the decentralized nature of
contracting activities overseas.

Roles and Responsibilities

        The contracting office that awarded the contract is responsible for its closeout.
A/LM/AQM is responsible for closing out approximately 98 percent of the total dollar value of
the contracts awarded to support the U.S. Mission in Iraq. A/LM/AQM has two CCTs that are
responsible for facilitating contract closeout procedures with administering bureaus, COs, and
their representatives. The CCTs interface directly with administering bureaus and COs to
complete the necessary contract closeout forms and administrative information. Once a contract
is physically complete, the CO is responsible for notifying the CCT of the contract status and
required closeout actions. The embassy and other Department bureaus, such as the Bureau of
International Narcotics and Law Enforcement Affairs, are responsible for awarding and closing
out the remaining 2 percent of contracts administered in support of the U.S. Mission in Iraq.

                                       Audit Objective
        The overall audit objective was to determine whether the Department had effectively and
efficiently closed out contracts supporting the U.S. Mission in Iraq. Specifically, we determined
whether the Department had complied with Federal and Department contract closeout
requirements and whether the Department had reviewed and identified funds remaining on
physically completed contracts that could be deobligated.




                                                4

                                        UNCLASSIFIED
                                                UNCLASSIFIED


                                                 Audit Results

Contract Closeout Requirements Were Not Met Consistently
       The CCTs and the COs had not consistently met Federal and Department contract
closeout requirements for the 115 Iraq-related task orders included in our review. Specifically,

           •   contract files for 33 of the 115 task orders could not be located,
           •   contract files for five of the 115 task orders did not include the data needed to
               determine physical completion,
           •   evidence for the initial funds review was missing for 43 of the 53 physically
               completed task orders,
           •   contract closeout timelines were not met for 25 of the 53 physically completed task
               orders, and
           •   contract files for all 30 of the closed task orders were missing required closeout data.
        These conditions occurred because the Department had not established comprehensive
procedural guidance for contract closeout or ensured that existing guidance was accurate. In
addition, the Department did not have a system in place for tracking the contract and task order
periods of performance so that COs could identify and monitor contracts and task orders nearing
physical completion. As a result, the risk of financial mismanagement was increased, and as of
May 10, 2013, $38.7 million had not been deobligated timely and had expired, preventing its use
for other purposes.

Task Orders Reviewed

       We selected 115 task orders, which represented about $7.58 billion in obligated task
order value, for our review from a universe of Iraq-related task orders awarded between FY 2005
and FY 2011. We identified task orders awarded both domestically and overseas by U.S.
Embassy Baghdad as two distinct populations to assess whether contracting office location was a
determinate factor in contract closeout compliance. 3 Because our results were generally
systemic in nature, we combined the sample populations when presenting the overall results.
The overall results are categorized by contracting office location in Table 1.




3
    Additional data concerning the sample selection are contained in Appendix A.

                                                          5

                                                UNCLASSIFIED
                                                UNCLASSIFIED


Table 1. Contract Sample Breakdown
                                                                       Domestically           U.S. Embassy
                                                                         Located                Baghdad
                Discrepancy                          Overall*
                                                                       Contracting            Contracting
                                                                         Offices                 Office
    Contract Files Could Not Be Located                  33                25                       8
    Physical Completion Could Not Be
    Determined                                            5                   0                       5
    Initial Funds Reviews Were Missing                   43                   34                      9
    Closeout Timelines Were Not Met                      25                   25                      0
    Contract Files Were Missing
    Supporting Documentation                             30                   16                     14
*The total count is greater than the sample size of 115 because of multiple errors noted within each sample.
Source: Prepared by Kearney based on information provided by the Department.

Contract Files Could Not Be Located

         The CCTs and COs could not locate contract files for 33 of the 115 task orders included
in our review. The DOSAR 4 states that all contracts, regardless of dollar value, should be
properly documented to provide a complete record of contracting activities, including
solicitation, award, and administration of the contract through closeout. For the 25 contract files
that should have been maintained at A/LM/AQM, contracting officials stated that they were
primarily unable to provide the files in a timely manner because of an office move that took
place in February 2013. However, as of April 5, 2013, after the move was completed,
A/LM/AQM officials were still unable to provide the files, stating that they needed several more
weeks to locate the files and place them in an organized filing system. 5 For the eight contract
files that should have been maintained at Embassy Baghdad, contracting officials stated that it
was difficult for post to maintain records in accordance with the DOSAR requirement because of
the turnover of both American and locally engaged staff. Embassy Baghdad officials also stated
that some of the contract files may have been lost or misplaced during the move from the old
presidential palace to the new embassy compound in 2009.

Physical Completion Could Not Be Determined

        For five of the task orders that were issued by Embassy Baghdad, the contract files did
not contain adequate information to determine whether the task orders were physically complete.
Specifically, the files were missing key information, such as the task order award, the evidence
of receipt and acceptance for goods ordered, and the basic task order provisions to determine the

4
  Requirements for the content of contract files and the storage, handling, and disposal of these files are contained in
the DOSAR, Subpart 604.803, “Contents of Contract Files,” and the FAR, Subparts 4.801, “General,” 4.802,
“Contract Files,” 4.803, “Content of Contract Files,” and 4.805, “Storage, Handling, and Disposal of Contract
Files.”
5
  Kearney did not continue to follow up regarding these contracts, as sufficient and appropriate evidence had been
obtained to come to a conclusion on the audit objective. Further, the Department was unable to provide an exact
date as to when the remaining 25 (of 78) domestic contracts would be available for review.

                                                           6

                                                 UNCLASSIFIED
                                                UNCLASSIFIED


proper period of performance. The missing information prevented us from completing audit
procedures on those five task orders.

Initial Funds Reviews Were Missing

        Of the 53 physically completed task orders, 43 had no evidence in the contract files that
an initial funds review had been conducted. The FAR and DOSAR require that the contracting
office conduct a funds review upon initiating the contract closeout process to determine whether
excess funds are available for deobligation. For the 34 domestically managed task orders,
contracting officials stated that they lacked specific procedures on how to conduct a funds review
and that limited access to data maintained in the Department’s legacy Central Financial
Management System had made conducting a funds review a cumbersome process. For the nine
task orders managed by Embassy Baghdad, contracting officials stated that the previous
contracting officials assigned to the embassy had not ensured that the funds review was
conducted and documented. The contracting officials added that they did not have enough
experienced personnel to retroactively correct the errors of contracting officials assigned to the
embassy in the past.

Closeout Timelines Were Not Met

        Of the 53 physically completed task orders, 13 were closed within the timelines
prescribed by the FAR and DOSAR, 25 were not within the timelines, and 10 were missing the
documentation necessary to determine the closeout status. 6 The specific number of task orders
closed within and outside those timelines is shown in Table 2.

Table 2. Closeout Timeframe Summary
                                                                                                            Total
                                      Closed Within              Exceeded              Pending
        Contract Type                                                                                     Physically
                                        Guidance                 Guidance              Closeout
                                                                                                          Complete

Fixed Price
                                                       11                     20                    0                  31
Cost Reimbursable/Time and
Materials*                                              2                      5                    5                  12
Subtotals                                              13                     25                    5                  43
*A time and materials contract is used when the amount of work or costs cannot be reasonably estimated. On time
and materials contracts, the contractor is paid based on agreed labor rates and material costs regardless of the actual
costs.
Source: Prepared by Kearney based on information provided by the Department.




6
 Of the 53 physically complete task orders, only 43 could be tested for timeliness. The contract files for the other
10 task orders did not contain sufficient documentation to determine open/close status.

                                                            7

                                                 UNCLASSIFIED
                                              UNCLASSIFIED


Contract Files Were Missing Supporting Documentation

       Of the 30 task orders considered closed by the Department, none of the corresponding
contract files contained all of the documentation required by the FAR and DOSAR to support
closeout. Specifically, we identified the following discrepancies in the task orders:

        •    2 referenced the existence of classified material but contained no documentation to
             support that the Bureau of Diplomatic Security had been notified of the need for
             potential disposition of classified material.
        •    2 referenced the existence of Government Furnished Equipment or Contractor
             Acquired Property but contained no property clearance report.
        •    4 did not contain a termination docket. 7
        •    13 did not contain a completed Contractor Release of Claims.
        •    23 did not contain a completed Final Payment and Closeout Memorandum.
        •    21 did not contain a completed Contracting Officer’s Representative (COR)
             Completion Certificate certifying that all goods and services had been received.
        •    16 did not contain a completed Contract Performance Assessment and Reporting
             System or equivalent evaluation form.
        •    4 did not contain the Small Business Administration contract completion form.
        •    22 did not contain a completed Closeout Checklist.

Closeout Guidance Was Not Comprehensive or Accurate

        The CCTs and COs were not consistently meeting contract closeout requirements for the
115 Iraq-related task orders because the Department’s guidance was not comprehensive or
always accurate. Although the FAH, DOSAR, and Overseas Guidebook contain general
closeout requirements, the Department did not have a single-source manual or guidebook
containing all the steps and actions needed to correctly close out contracts and contract task
orders.

        The Foreign Affairs Handbook

       FAH guidance concerning contract closeout is limited to describing the general closeout
responsibilities for the CO and the COR and defining the threshold for reporting contractor
performance. The FAH 8 states that the CO is responsible for contract closeout and will “initiate
administrative closeout actions, e.g. requesting final audits, negotiating final settlements, etc.”
There are no specific steps provided for the CO to follow and no description of what “etc.”
includes. The FAH states that the COR is responsible for notifying the CO when work has been
completed and for completing contract closeout documentation; however, the only contract
closeout documentation specifically noted is an “assessment report.” The FAH does not define

7
  A termination docket is used when the CO terminates the contract prior to the period of performance as defined by
the base period and any exercised option periods. The CO should document the termination date, cause for
termination, and remaining actions required of each party to the contract.
8
  14 FAH-2 H-570.

                                                         8

                                               UNCLASSIFIED
                                              UNCLASSIFIED


what an assessment report is, what data are included in the report, or where the report can be
found. In addition, the FAH does not reference where additional closeout guidance can be
found, to include the DOSAR or the Overseas Guidebook. As the Department’s primary
procedural guidance, the FAH should contain more specificity concerning contract closeout or
provide reference to where additional procedural guidance can be found.

        Department of State Acquisition Regulation

        The DOSAR restates some of the FAR guidance and provides additional guidance on
Department-specific contract closeout procedures. However, the DOSAR does not
comprehensively address all FAR-required closeout activities. Further, it contains inaccurate
information concerning the coordination of incurred cost audits, which are key to timely closeout
for cost-reimbursable contracts and task orders.

         One of the closeout activities not comprehensively addressed in the DOSAR is the initial
funds review. As stated previously, the COs cited the lack of procedures as a reason for not
conducting the reviews. The initial funds review is a closeout activity necessary for ensuring
that excess funds are identified and deobligated for potential use elsewhere. Not identifying and
deobligating excess funds can result in the funds expiring, which makes them unavailable for use
elsewhere. The Department must ensure that comprehensive procedures are in place for the
initial funds review to reduce the risk of the funds expiring.

        The DOSAR also does not comprehensively address closeout procedures for cost-
reimbursable contracts and task orders. Because the year end and final invoices cannot be paid
without the settlement of the indirect cost rates, it is imperative that those rates be timely audited
by the cognizant audit agency. 9 According to the Office of Federal Procurement Policy’s
document, “A Guide to Best Practices for Contract Administration,” notifying the cognizant
audit agency whenever a cost-reimbursable contract is awarded assists the audit agency in
forecasting future requirements into its workload projections. If the Department is the cognizant
audit agency, the CO should be coordinating with the Defense Contract Audit Agency (DCAA) 10
from the time a contract is awarded instead of waiting for the physical completion of a contract
or task order, as was the case for most of the task orders we reviewed. If the Department is not
the cognizant audit agency, the CO should likewise coordinate with the agency responsible for
auditing the contractor’s indirect cost rates. The DOSAR should require that the CO identify the
cognizant audit agency at contract award and begin coordinating with that audit agency to help
prevent large backlogs of pending or unscheduled incurred cost audits.

       Further, the DOSAR does not specifically require the CO to include FAR Clause
52.216-7, “Allowable Cost and Payment,” in cost-reimbursable contracts. FAR Clause 52.216-7
requires that the contractor submit its annual indirect cost rates to the CO within 180 days of the
9
  The agency that has the highest dollar amount of contracts with the respective contractor is responsible for
conducting the incurred cost audit. If that is an agency other than the Department, the Department COs should
coordinate with that agency.
10
   The Department has an agreement with DCAA to conduct incurred cost audits for contracts requiring audits per
Federal and Departmental requirements.

                                                        9

                                              UNCLASSIFIED
                                        UNCLASSIFIED


end of its fiscal year and submit its final invoice within 120 days after settlement of the rates.
The FAR Clause also provides remedies to the Government for contractor noncompliance should
the contractor fail to submit a final invoice within the required timeframe. Inadequate indirect
cost rate submissions by the contractor, particularly when the contractor is not required to make
those annual submissions in a timely manner, can further delay the incurred cost audit and the
closeout process. Therefore, the DOSAR should be updated to require COs to include FAR
Clause 52.216-7, “Allowable Cost and Payment,” in all cost-reimbursable contracts.

        Lastly, the DOSAR incorrectly states that requests for incurred cost audits should be
submitted through the Department’s OIG, a requirement that has not been in effect since 2011.
In October 2011, the Department entered into an agreement with DCAA to conduct incurred cost
audits for those contractors in which the Department has audit cognizance. However, the
Department did not update the DOSAR to reflect the DCAA agreement and instruct the COs to
coordinate and submit their incurred cost audit requests through DCAA and not through the OIG.
To ensure that the CO has accurate information and to reduce the opportunity for confusion, the
DOSAR should be revised to reflect the terms of the DCAA agreement.

       Overseas Contracting and Simplified Acquisition Guidebook

        Although the Overseas Guidebook contains more detailed information than the FAH and
the DOSAR, it does not comprehensively address all FAR- and DOSAR-required closeout
activities. Further, while intended for COs overseas, to include COs in contingency operation
locations, the Overseas Guidebook does not specifically address contract closeout problems that
are often unique to overseas and contingency operation locations.

         The Overseas Guidebook does not address the need to conduct an initial funds review or
an incurred cost audit when closing cost-reimbursable contracts and task orders. Conducting an
initial funds review is imperative, especially with cost-reimbursable contracts, because it can
take months and sometimes years for the incurred cost audit to be completed. When an initial
funds review is not conducted, it increases the risk that excess contract or task order funds might
expire before they can be identified and potentially used to meet other needs. Likewise, if the
CO is not informed that an incurred cost audit needs to be performed, it could further extend the
contract closeout process.

       While the Overseas Guidebook contains standardized templates and checklists to assist
the CO in the closeout process, the Contract Closeout Checklist (see Appendix C) does not
include all of the activities necessary to adequately close a contract or task order. Specifically,
the checklist does not include the following closeout activities required by the FAR and DOSAR:

       •   Patent report.
       •   Royalty report.
       •   Plant clearance report.
       •   Completed price revision.
       •   Termination docket.
       •   Completed contract audit.

                                                10

                                        UNCLASSIFIED
                                         UNCLASSIFIED



       Checklists are an excellent tool for ensuring that all required closeout activities are
accomplished; however, the checklists need to be comprehensive and should be reviewed
periodically to ensure that they do not contain outdated or inaccurate information.

         Although the Overseas Guidebook was designed for use overseas, it does not specifically
address contract closeout problems that are often unique to overseas and contingency operation
locations. For example, CORs in Iraq rotate annually, if not more frequently, and an opportunity
for a transition period before departure was not always available. However, the Overseas
Guidebook did not contain guidance to address this risk by requiring CORs to formally
document the status of a contract or provide an interim evaluation of contractor performance
before departing the post. Without such information and because of the frequent turnover, CORs
at Embassy Baghdad did not have the knowledge of work performed on a contract before they
arrived at the post, making it difficult to complete the contract closeout steps required by the
FAR and the DOSAR.

        To improve contract closeout overall, the Department should develop and issue a
guidebook that contains contract closeout procedures for use by COs located domestically as
well as overseas. To address the unique challenges experienced overseas and in overseas
contingency operation locations, the guidebook should have chapters specific to those
challenges. Other agencies, such as the Department of Health and Human Services and the
Department of Defense, have developed all-inclusive guidebooks for contract closeout. Use of a
single, comprehensive guidebook would standardize contract closeout across the Department and
help to increase compliance with the FAR and DOSAR contract closeout requirements.

Department Lacked a Unified Contract Management System

        The Department lacked a unified contract management system capable of tracking
contract and task order periods of performance, which hindered the COs’ visibility into contracts
at or near physical completion and those nearing FAR-mandated timeframes for closeout.
Further, the CCTs, which were responsible for the majority of Iraq-related task order and
contract closeouts, had to rely heavily on COs and vendors for notification of contract physical
completion. Although one of the CCTs utilized a Microsoft Access database called the
“Contract Closeout Tracking System” to store information about contracts identified for closeout
processing, the system was not populated with contract information and key milestones upon
award to facilitate efficient and effective closeout. In addition, the system included information
only on contracts that were in process by the CCT and did not include a complete inventory of
contracts that were physically complete awaiting contract closeout. To ensure that task orders
nearing physical completion are identified in a timely manner, COs should use management
information systems and existing contract writing systems to track contract closeout tasks and
status from physical completion through final payment.

       Further, the COs did not have a sufficient process in place to monitor the location of
contract files or ensure that sufficient information was included in each file. A/LM/AQM


                                                 11

                                         UNCLASSIFIED
                                              UNCLASSIFIED


officials stated that electronic copies of certain documents were available but that the documents
were not the official, signed versions. A/LM/AQM officials explained that A/LM/AQM was in
the process of digitizing all contract files; however, officials estimated that it would take
3–5 years to complete this task. Although the digitization effort may improve records
management, additional monitoring by COs will be required to ensure appropriate contract
documentation is maintained to facilitate and support contract closeout. Therefore, the
Department should develop and implement an e-Filing policy and document management system
to provide effective contract file inventory control and documentation standards while allowing
for ready accessibility through a central locator system.

Risk of Financial Mismanagement and Expiration of Funds Was Increased

        Noncompliance with Federal and Department contract closeout guidance increased the
Department’s risk of financial mismanagement and the expiration of funds for Iraq-related
contract task orders. For example, the Department was unable to locate $2.1 billion in Iraq-
related contract files. Poor records management can have major impacts on the Department, as it
can lead to unnecessary costs via improper payments and increased risk. When contract closeout
requirements are not followed, the risk of late payments to contractors increases, as does the risk
that improper payments may not be identified or recovered from contractors. In addition, closing
a contract years after the performance is complete can be more time consuming because key
documentation, such as invoices and receiving reports, and contracting personnel with first-hand
knowledge of the contract may no longer be available.

       Specifically, for the Iraq-related task orders, because funds were not deobligated in a
timely manner, the Department wasted funds that could have been put to better use. As detailed
in Table 3, if the initial funds review had been completed in a timely manner, $38.7 million
could have been deobligated to meet other needs; instead, those funds were allowed to expire.

Table 3. Expired Funding
                                 Physical Completion      Ending Budget Fiscal    Expired Funding That Could
    Task Order Number
                                   Date (mm/yyyy)                Year              Have Been Used Elsewhere
SAQMPD06FB120                                 05/2009                     2009                $2,462,214.60
SAQMPD06FC230                                 02/2009                     2009                $4,240,466.81
SAQMMA09F1029                                 05/2011                     2012               $22,348,522.73
SAQMPD06FC227                                 06/2011                     2011                $9,199,947.58
SALMEC07C0002                                 07/2011                     2011                  $418,822.56
                                                                       Subtotal              $38,669,974.28
Source: Kearney analysis of cost reimbursable/Time and Materials contracts.

        Recommendation 1. OIG recommends that the Bureau of Administration update the
        Foreign Affairs Handbook to include detailed, comprehensive, and all-inclusive guidance
        for performing an initial funds review and closing contracts, or provide reference to
        where additional procedural guidance can be found. The guidance should contain best
        practices as defined by entities such as the Office of Federal Procurement Policy.



                                                        12

                                              UNCLASSIFIED
                                UNCLASSIFIED


Management Responses: A/LM/AQM and A/OPE concurred, and A/OPE stated that it
would “update the Foreign Affairs Handbook to include additional guidance on
performing an initial funds review and contract closure.”

OIG Reply: OIG considers this recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that the Foreign Affairs
Handbook has been updated.

Recommendation 2. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, update the Department of State Acquisition Regulation to
include detailed desktop procedures on how to perform an initial funds review.

Management Response: A/OPE concurred, stating that it would update the DOSAR to
reference the updated Foreign Affairs Handbook provisions.

OIG Reply: OIG considers this recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that the DOSAR has been
updated to include detailed desktop procedures on how to perform an initial funds review.

Recommendation 3. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, update the Department of State Acquisition Regulation to require
that the contracting officer identify the cognizant audit agency at contract award and
begin coordinating with that audit agency to help prevent large backlogs of pending or
unscheduled incurred cost audits.

Management Response: A/OPE concurred, stating that it would “update the DOSAR to
require identification of the cognizant audit agency” and coordination with that audit
agency early in the process.

OIG Reply: OIG considers this recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that the DOSAR has been
updated to require that the CO identify and begin coordinating with the cognizant audit
agency at contract award.

Recommendation 4. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, update the Department of State Acquisition Regulation to require
contracting officers to include Federal Acquisition Regulation Clause 52.216-7,
“Allowable Cost and Payment,” in all cost-reimbursable contracts.

Management Response: A/OPE did not concur, stating that Federal Acquisiton
Regulation 16-307(a)(1) already requires that the CO insert Clause 52.216-7 in the
solicitations and contracts and that the clause should therefore not be included in the
DOSAR.



                                         13

                                 UNCLASSIFIED
                                UNCLASSIFIED


OIG Reply: OIG considers this recommendation unresolved. OIG agrees that FAR
16-307(a)(1) requires Clause 52.216-7 be included in solicitations and contracts, even if
the Department is only contemplating use of a cost-reimbursable contract. However,
OIG determined that the clause was not consistently included in cost-reimbursement
contracts, which had a direct impact on the timeliness of contract closeout. This
recommendation can be considered resolved when A/OPE concurs with the
recommendation or provides alternative actions that meet the intent of the
recommendation and can be closed when OIG reviews and accepts documentation
showing that A/OPE has included the FAR 52.216-7 clause requirement in the DOSAR.

Recommendation 5. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, revise the Department of State Acquisition Regulation to reflect
the interagency agreement between the Department of State and the Defense Contract
Audit Agency for conducting incurred cost audits.

Management Response: A/OPE concurred, stating that it would update the DOSAR.

OIG Reply: OIG considers this recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that the DOSAR has been
revised to reflect the interagency agreement between the Department and DCAA for
conducting incurred cost audits.

Recommendation 6. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, formally document and implement a process to periodically
review contract closeout guidance and tools, such as the Overseas Contract Closeout
Checklist, for accuracy and consistency with Federal and Department of State
requirements.

Management Response: A/OPE did not concur, stating that it currently reviews the
Overseas Simplified Acquisition Guidebook and has historically updated this information
every 3 years. A/OPE further stated that the DOSAR is under revision to include contract
closure guidance and that the frequency of review for both the Guidebook and the
DOSAR is dependent on resources and changes to processes and regulations.

OIG Reply: OIG considers the recommendation resolved. Although A/OPE did not
concur, A/OPE’s Guidebook update process, combined with planned corrective actions
from Recommendations 1–3, 5, and 7 contained in this report are sufficient to meet the
intent of the recommendation. The recommendation can be closed when OIG reviews
and accepts documentation showing that A/OPE has updated contract closure guidance,
including the DOSAR and related guidebooks.

Recommendation 7. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, develop a detailed and consolidated guidebook that contains
contract closeout procedures for use by contracting officers located domestically and


                                        14

                                UNCLASSIFIED
                                 UNCLASSIFIED


overseas. The guidebook should have individual chapters addressing specific risks faced
by contracting officials based on geographic location.

Management Response: A/OPE concurred, stating that it would “update contract
closure guidance to include more detailed information on initial funds review and
closure.”

OIG Reply: OIG considers this recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that A/OPE has developed
a detailed and consolidated contract closeout guidebook.

Recommendation 8. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, develop an automated
application to track contract status upon award, to include estimated and actual physical
completion dates and Federal Acquisition Regulation (FAR)-mandated timeframes for
closeout based on actual physical completion. The application should include
functionality to notify responsible officials of key contract dates, to include notifications
to responsible officials when physically completed contracts are approaching the FAR’s
mandated deadline.

Management Response: A/LM/AQM concurred, stating that an automated application
would assist in monitoring due dates and that it would continue to work with the
Momentum Acquisition software developer to provide the additional capabilities needed
for a notification system.

OIG Reply: OIG considers this recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that an automated
application to track contract status upon award has been developed.

Recommendation 9. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, in conjunction with the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, develop and implement an
e-Filing policy and document management system to provide effective contract file
inventory control and documentation standards while allowing for ready accessibility
through a central locator system. The policy should include minimum guidance over the
completeness of data contained in the files and a schedule of milestones identifying
mandatory implementation dates.

Management Response: A/OPE stated that it was working with A/LM on “a pilot
program to evaluate the feasibility of creating electronic files for overseas posts” and that
the new e–Filing capability would be ready for worldwide deployment once a thorough
evaluation of the pilot was completed and enhancements have been implemented.
A/OPE further stated that A/LM/AQM would examine the feasibility of this type of
system for domestic contracts.


                                          15

                                 UNCLASSIFIED
                                UNCLASSIFIED


OIG Reply: OIG considers the recommendation unresolved. Although A/OPE stated
that an e–Filing system is in a pilot phase for overseas posts, A/OPE did not address the
need to implement an e-Filing system for all contract documentation and to develop and
implement a policy related to the e-Filing system. This recommendation can be
considered resolved when A/OPE concurs with the recommendation or provides
alternative actions that meet the intent of the recommendation and can be closed when
OIG reviews and accepts documentation showing that the policy and the e–Filing
solution have been deployed worldwide.




                                        16

                                UNCLASSIFIED
                                        UNCLASSIFIED


                                                                                     Appendix A

                                  Scope and Methodology
       The Office of Inspector General (OIG) initiated this audit to determine whether the
Department of State (Department) had effectively and efficiently closed out contracts supporting
the U.S. Mission in Iraq. Specifically, OIG determined whether the Department had complied
with Federal and Department contract closeout requirements and whether the Department had
reviewed and identified funds remaining on physically completed contracts that could be
deobligated. An external audit firm, Kearney & Company, P.C. (referred to as “Kearney,” “we,”
and “our” in this appendix), acting on behalf of OIG, performed this audit.

        We conducted fieldwork for this performance audit from December 2012 through
May 2013 at the Bureau of Administration, Office of Logistics Management, Office of
Acquisitions Management (A/LM/AQM); the Bureau of Administration, Office of the
Procurement Executive (A/OPE); the Bureau of Diplomatic Security (DS); the Bureau of
International Narcotics and Law Enforcement Affairs (INL); the Bureau of Overseas Buildings
Operations (OBO); and the Bureau of Near Eastern Affairs (NEA), including Embassy Baghdad.
The audit scope was limited to contracts performed in Iraq that were physically completed
between October 1, 2007, and September 30, 2011. Except as otherwise noted in this appendix,
we conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on the
audit objectives. We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

        We determined that the Department’s contract writing and reporting systems did not track
contract physical completion imposing certain information limitations on the target population.
In addition, A/LM/AQM was unable to provide a listing of Iraq-specific contracts from a single
system and was unable to accurately identify all activity recorded within a system as Iraq related.
Specifically, A/LM/AQM had to perform key word searches (for example, Iraq) in description
fields to identify additional Iraq-related contracts because of inaccuracies in key fields such as
place of performance.

        Further, after the submission of testing follow up questions and requests, Embassy
Baghdad officials acknowledged that additional information may exist. However, they elected
not to locate and provide complete supporting documentation and responses noting limited
available staff, access to archived records, and reluctance to remediate historical contracting
closeout issues. In some instances, because the Department elected not to provide this
information, it was necessary for us to draw conclusions based on the partial documentation that
the Department did provide.

       We were unable to positively identify all physically completed contracts in Iraq between
October 1, 2007, and September 30, 2011, because the Department was unable to provide the
requested target population in combination with known data inaccuracies and partial access to

                                                17

                                        UNCLASSIFIED
                                              UNCLASSIFIED


overseas contract files that created certain information limitations. We developed alternative
approaches to analyze, compare, and confirm various data populations and to select samples to
mitigate these limitations. Computer-processed data utilization is discussed further in this
appendix.

        To obtain background information for this audit, we researched and reviewed the Federal
Acquisition Regulation (FAR), the Department of State Acquisition Regulation (DOSAR), and
the Government Accountability Office’s Principles of Federal Appropriations Law. We met
with officials from A/LM/AQM, A/OPE, DS, INL, OBO, NEA, and Embassy Baghdad to obtain
an understanding of their contract closeout and funds review processes. We also met with the
officials from the Defense Contract Audit Agency (DCAA) to obtain an understanding of the
incurred cost audit process, including frequency and impact of errors identified, alternatives to
performing DCAA incurred cost audits, best practices of client agencies, and vendor-specific
constraints noted based on past performance.

        We performed testing over domestic and overseas contracts 11 separately. We identified
significant risks and key controls within the contract closeout and funds review processes. We
noted findings in which identified risks were not mitigated by controls. To assess control design,
we performed walkthroughs of each significant control with process owners. For all controls
found to be designed effectively, we developed procedures to test the operation of these controls.
Controls that were found to be ineffectively designed, such as the initial funds review, were
further assessed for impact, including short- and long-term risks as applicable.

Use of Computer-Processed Data

        As noted in the preceding paragraphs, a universe of domestic contracts performed in Iraq
that were physically completed between October 1, 2007, and September 30, 2011, was not
readily available. The Department’s contracting systems do not track physical completion,
which prevented the acquisition of the specific universe requested in the audit objective. We
could not confirm completeness or accuracy of the data. Specifically, the audit team used
computer-processed data from the Federal Procurement Data System–Next Generation (FPDS-
NG). We obtained FPDS-NG information from A/LM/AQM on domestic contracts awarded
from FY 2008 to FY 2011 for the U.S. Mission in Iraq. A/LM/AQM used FPDS-NG to
maintain, collect, and report contract activity. Because FPDS-NG does not contain certain fields
of data needed for the audit, A/LM/AQM appended the FPDS-NG domestic contract information
for the U.S. Mission in Iraq with information from other systems, including the Department’s
Global Financial Management System (GFMS) 12 and the Synchronized Pre-Deployment
Operational Tracker–Enterprise Suite. Manual analysis was used to identify additional contracts
involving Iraq that did not have accurate data entries for place of performance. Specifically,
A/LM/AQM had to perform key word searches (for example, Iraq) in description fields. In

11
   The terms “domestic contract” and “overseas contract” are determined based on the geographic location of the
awarding bureau and/or post. In both instances, the place of performance was Iraq.
12
   GFMS integrates overseas and domestic financial management into one system to obtain a single view of financial
data. GFMS is the primary contract writing system and accounting system of record.

                                                       18

                                              UNCLASSIFIED
                                       UNCLASSIFIED


addition, A/LM/AQM completed a manual comparison between each system queried to
determine which contracts should be included in the population.

        Because of the data limitations and the manual nature in which our populations were
developed, we took several additional steps to obtain assurance that the manual files were
reasonably complete for purposes of the audit. Specifically, we acquired contract information
from USASpending.gov and queried for Iraq-related contracts. Contract data from
USASpending.gov was then matched with information from the domestic population, and
significant discrepancies were not identified. FPDS-NG was a primary source for
USASpending.gov procurement information, providing an additional source to support
completeness. In accordance with the Federal Funding Accountability and Transparency Act of
2006, all unclassified Federal award data must be publicly accessible and Executive agencies are
required to use FPDS-NG to maintain such award data and any modifications. Per Office of
Management and Budget Memorandum M-09-19, contract data from FPDS-NG should be
provided to populate USASpending.gov. In addition, consistent with Office of Management and
Budget Circular No. A-123, agencies should apply appropriate internal controls to effectively
manage the accuracy, integrity, timeliness, and appropriate privacy of all data submitted to
USASpending.gov. The audit team was unable to confirm the completeness and accuracy of the
data acquired through USASpending.gov. However, based on how the data was used in the
audit, we concluded that the data was sufficient for our needs of assessing whether the domestic
population was reasonably complete.

        For overseas contracts, we obtained computer-processed data for the FY 2008 and
FY 2009 population from WebPass archived files and the FY 2010 and FY 2011 population from
the Integrated Logistics Management System/Ariba. WebPass was the Department’s overseas
procurement system prior to the implementation of Integrated Logistics Management
System/Ariba in FY 2009. In both sets of data, requested fields (that is, period of performance,
last date of activity, and total unliquidated obligations) could not be provided. In addition, the
WebPass archived files did not include the vendor, bureau, contract type, and contracting officer
fields. We did not test the information provided to ensure that it was accurate. Based on the
significance of the overseas population and how the data was used in the audit, we concluded
that the data was sufficient for our needs.

Review of Internal Controls

       We performed steps to assess the adequacy of internal controls related to the areas
audited. Specifically, we gained an understanding of and tested the controls over contract
closeout and initial funds review. Work performed on internal controls was detailed in the Audit
Results section of the report. In addition, selected controls identified during the audit, their
descriptions, and determinations over design and operating effectiveness are documented in
Table 1.




                                               19

                                       UNCLASSIFIED
                                              UNCLASSIFIED


Table 1. Key Controls Over the Contract Closeout and Funds Review Processes

                                                                                        Designed      Operating
  Processes     Key Documents                         Description
                                                                                       Effectively    Effectively

                COR               The contracting officer’s representative (COR)          Y                N
                Completion        documented that all goods and/or services were
                Certificate       received in accordance with contract
                                  specifications by completing a COR completion
                                  certificate.
               COR                The COR documented the contractor's                     Y                N
               Performance        performance by assessing the quality and
               Evaluation         timeliness of the contractor’s actions against
                                  requirements identified in the statement of work.
               Contactor          The CO obtained a signed release of claims from         Y                N
               Release of         the contractor to protect the Government against
               Claims             future liabilities.
   Contract    Final Payment      The COR reviewed the final voucher/invoice for          Y                N
   Closeout    and Closeout       accuracy. The COR documented the review by
               Memorandum         approving payment of final invoice/voucher.
               CO Contract        The CO completed a Contract Closeout                    N                N
               Closeout           Checklist certifying that all required closeout
               Checklist          items had been accomplished and were
                                  adequately supported by appropriate
                                  documentation. Key items covered in the
                                  checklist that were not mentioned previously
                                  included ensuring the proper disposition of
                                  classified material, the return of Government-
                                  owned property (for example, Government-
                                  furnished equipment), and the settlement of
                                  prior year indirect cost rates.
               Standard Form      The Federal Acquisition Regulation, 4.804-5,            N                N
               (SF) 30            mandated that an initial funds review be
                                  performed by the contract administration office
                                  at the outset of the initiation of the contract
                                  closeout process. We noted that the Department
                                  performed an Unliquidated Obligation (ULO)
                                  review on an annual basis and deobligated
                                  excess funds via an SF-30. While the ULO
                                  review was a valuable control, it was largely
    Funds                         intended as a tool to review significantly aged
    Review                        obligations and did not serve the same purpose
                                  as a funds review, which should have been
                                  completed when the contract closeout process
                                  was initiated.
               SF 30 and CO       The Department performed a final funds review           Y                Y
               Contract           at contract closeout once final payment and
               Closeout           indirect cost rates had been settled. Remaining
               Checklist          funds were deobligated via an SF-30, and a
                                  remaining balance of zero was indicated on the
                                  Contract Closeout Checklist.
Source: Prepared by Kearney based on its understanding of the Department’s control environment and its test of
controls.

                                                       20

                                              UNCLASSIFIED
                                        UNCLASSIFIED



Sampling Methodology

        The audit objective was to determine whether the Department had complied with Federal
and Department contract closeout requirements for the U.S. Mission in Iraq, which included
reviewing and identifying funds remaining on physically completed contracts that could be
deobligated. To obtain sufficient evidence to conclude whether the Department performed
contract closeout procedures and complied with Federal and Departmental provisions, we
implemented a judgmental sample for both domestic and overseas task orders with a total sample
size of 115 items associated with approximately $7.58 billion in value. We selected a
judgmental sample due to, as noted above, the Department’s limitations in providing contract
population data, and based on the purpose of the audit. A statistical sample with extrapolated
substantive results related to the funds review process was not possible due to these data
limitations.

        The following sections summarize the process used to define a population subject to
sampling given the information limitations previously noted, select judgmental samples for
domestic and overseas testing, and examine supporting documentation to conclude on the audit
objective.

       Population Definition and Sample Selection

        We identified domestic and overseas contracts as two distinct populations based on
differences in the contract initiation and closeout control environments. In addition,
overseas-initiated contracts are generally lower in value, given restrictions on contracting
officials’ warranted authority to enter into contracts at post. Overseas contracts were separately
sampled to address these differences and provide results specific to the overseas control
environment.

        Domestic Population and Sample Selection. We requested from audit liaison officials
in the A/LM/AQM, a population of domestic-generated contracts for the period and location in
the scope. As previously noted, we could not obtain a complete target population consisting of
Department contracts performed in Iraq that were physically completed between October 1,
2007, and September 30, 2011, because of system limitations. The Department’s contract
systems do not track physical completion. Department officials undertook alternative procedures
to provide domestic Iraq contracts information. A/LM/AQM provided a population from FPDS-
NG for Iraq contracts awarded, rather than physically complete, during FY 2008 to FY 2011.
Neither A/LM/AQM nor we could confirm the completeness and accuracy of the Iraq-specific
FPDS-NG data provided.

       We independently extracted contract information for the U.S. Mission in Iraq from
USASpending.gov to assess the FPDS-NG population provided by the Department and perform
additional analytical procedures over contract status, specifically for indicators of physical
completion. As discussed in the section “Use of Computer Processed Data” in this appendix,


                                                21

                                        UNCLASSIFIED
                                               UNCLASSIFIED


FPDS-NG was one of several sources used to populate information in USASpending.gov. We
queried USASpending.gov with the following parameters:

             •    Agency:                             Department of State
             •    Procurement Type:                   Contracts
             •    Timeframe:                          FY 2000 to FY 2011
             •    Place of Performance:               Iraq

We expanded the timeframe when contracts were awarded to attempt to capture contracts
awarded prior to FY 2008 that would be physically complete between FY 2008 and FY 2011.

        We elected to use the USASpending.gov population for judgmental sampling, given the
data restrictions of the provided FPDS-NG population and the objective of this audit.
Additionally, the FPDS-NG population was customized by A/LM/AQM and represented only
contracts awarded in FY 2008 to FY 2011 rather than those that were physically complete. The
USASpending.gov population afforded the opportunity to expand the fiscal years when task
orders were awarded to complete analytical procedures and attempt to capture contracts that
were physically complete for the years in our scope.

        The domestic population consisted of 581 task orders, totaling $10.83 billion, prior to
additional analytical procedures and targeted stratification. To identify a judgmental sample, we
analyzed contract activity, including remaining obligation balances, expenditure patterns, and
aging. We utilized unliquidated obligation (ULO) databases 13 from FY 2009 through FY 2012
to identify task orders that were fully liquidated during our timeframe in scope or had extended
periods of inactivity. Fully liquidated and inactive task orders were determined to have a greater
likelihood to be physically complete. Task orders meeting these criteria were compared with the
domestic population to identify those with a higher probability to be physically complete. We
also performed qualitative reviews of contract data for indicators of physical completion. To
maximize coverage, we also selected all items greater than $500 million after samples from prior
strata were selected. In addition, the number of resources available and the level of effort
required to perform a detailed inspection of supporting documents were taken into account when
developing sample sizes to facilitate the completion of this audit within the designated
timeframe.

       We selected for testing 78 domestic task orders, totaling $7.539 billion. The sub-
populations and judgmental sample sizes are summarized in Table 2.




13
  The ULO database is a customized report generated from GFMS that presents financial information on open
obligations at the point in time that the report is created. The ULO database is reconciled to the GFMS trial balance
to confirm accuracy.

                                                         22

                                                UNCLASSIFIED
                                          UNCLASSIFIED


Table 2. Domestic Sample Selection Summary
               Definition                 Total         Total Value      Sample    Sample Value
                                          Count                           Size
 Physically Complete                         105           $78,103,326        33     $75,380,957
 Inactive                                     23        $1,011,964,094        10    $982,144,579
 Low Activity and Low Available               30        $1,316,944,397       30    $1,316,944,397
 Balances
 Greater Than $500 million                     5        $5,164,961,732        5    $5,164,961,732
 Less Than $500 million and Open/Active      418        $3,256,020,677        0               $0
 Subtotal                                    581    $10,827,994,226          78    $7,539,431,665

        Overseas Population and Sample Selection. We requested from U.S. Embassy
Baghdad officials a population of overseas-generated contracts for the period and location in
scope. Similar to the domestic population, we could not obtain a complete target population
consisting of Department overseas contracts performed in Iraq that were physically completed
between October 1, 2007, and September 30, 2011, because of system limitations. The
Department’s contract systems did not track physical completion. Embassy officials undertook
alternative procedures to provide overseas Iraq contract information. Post provided a population
extracted from the WebPass Archived Files for FY 2008 and FY 2009 and from the Integrated
Logistics Management System (ILMS)/Ariba for FY 2010 and FY 2011. As noted in preceding
sections, WebPass was the overseas procurement system prior to the implementation of
ILMS/Ariba in FY 2009. We could not confirm the completeness and accuracy of the overseas
contract data. Based on the significance of the overseas population compared with domestic
contracts and how the data was used in the audit, we concluded that the data was sufficient for
our needs.

         To prepare the overseas population for judgmental sampling, we excluded all task orders
under $10,000; task orders with a status of “Denied” or “Composing” (FY 2010 and 2011 only,
as this information was not available in WebPass); and Petty Cash, Purchase Orders, and
Purchase Cards (FY 2010 and 2011 only, as this information was not available in WebPass).
Contracts with a status of “Denied” or “Composing” were not finalized and thus were considered
outside our audit scope. Contracts with a value of $10,000 or less, petty cash, purchase orders,
and purchase cards were considered to likely be irrelevant to the contract closeout process and
also involved inconsequential dollar amounts. The population less these exclusions totaled 865
items and $79.71 million.

        To identify a judgmental sample similar to the domestic selection process, we further
analyzed the overseas population for contract activity, including remaining obligation balances,
expenditure patterns, and aging. We utilized unliquidated obligation databases from FY 2009
through FY 2012 to identify task orders that were fully liquidated during our timeframe in scope
or had extended periods of inactivity. Task orders meeting our criteria were compared with the
overseas population to identify those with a higher probability of being physically complete.




                                                   23

                                          UNCLASSIFIED
                                              UNCLASSIFIED


       We initially selected for testing a total of 30 overseas task orders, totaling $34.64 million.
We expanded the sample selection for an additional seven items given the sufficiency of
evidence received on the initial 30 items. Table 3 summarizes the sub-populations and
judgmental sample sizes, including the expanded sample.

Table 3. Overseas Sample Selection Summary
                   Definition                     Total      Total Value      Sample     Sample Value
                                                  Count                        Size*
 Physically Complete–FY 2010 and FY 2011            242      $23,062,689            11      $9,474,823
 Open Task Orders–FY 2010 and FY 2011                46       $2,993,558            10      $1,563,751
 Physically Complete–FY 2008 and FY 2009            577      $53,652,180            16     $23,604,529
 Subtotal                                             865     $79,708,427          37      $34,643,103
*Includes seven additional items based on sufficiency of evidence received.




                                                        24

                                               UNCLASSIFIED
                                               UNCLASSIFIED


                                                                                                      Appendix B

                   Federal Acquisition Regulation Contract Closeout
                 Requirements and Contracting Officer Responsibilities
       According to Federal Acquisition Regulation (FAR) 4.804-5, “Procedures for Closing out
Contract Files,” the contract administration office is responsible for initiating (automated or
manual) administrative closeout of the contract after receiving evidence of its physical
completion. At the outset of this process, the contract administration office must review the
contract funds status and notify the contracting office of any excess funds the contract
administration office might deobligate. When complete, the administrative closeout procedures
must ensure the following:

         (1)      Disposition of classified material is completed;
         (2)      Final patent report is cleared;
         (3)      Final royalty report is cleared;
         (4)      There is no outstanding value engineering change proposal;
         (5)      Plant clearance report is received;
         (6)      Property clearance is received;
         (7)      All interim or disallowed costs are settled;
         (8)      Price revision is completed;
         (9)      Subcontracts are settled by the prime contractor;
         (10)     Prior year indirect cost rates are settled;
         (11)     Termination docket is completed; 1
         (12)     Contract audit is completed;
         (13)     Contractor’s closing statement is completed;
         (14)     Contractor’s final invoice has been submitted; and
         (15)     Contract funds review is completed and excess funds deobligated.

        FAR 4.804-5 also states that the contracting officer administering the contract must
ensure that a contract completion statement is prepared. When the statement is completed, the
contracting officer must ensure that the signed original statement is placed in the contracting
office contract file.

        Further, Department of State Acquisition Regulation (DOSAR) 604-804-70, “Contract
Closeout Procedures,” requires the contracting officer to verify that all work under the contract
has been completed, to obtain the contracting officer’s representative’s assessment of the
contractor’s performance, and to complete the Small Business Administration’s Contract
Completion Form when applicable. The DOSAR also explicitly identifies the contracting officer
as the responsible party for completing the Contract Closeout Checklist, which outlines the
normal steps for closing out a physically completed contract.

1
 A termination docket is used when the contracting officer terminates the contract prior to the period of
performance as defined by the base period and any exercised option periods. The contracting officer should
document the termination date, cause for termination, and remaining actions required of each party to the contract.

                                                         25

                                               UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                  Appendix C

                              Contract Closeout Checklist
       The contracting officer is responsible for preparing contract closeout documentation as
previously defined in Appendix B. The Contact Closeout Checklist, a key document included in
the Overseas Contracting and Simplified Acquisition Guidebook, was a standardized tool
designed to be utilized by the contracting officer to ensure that all contract closeout
documentation required by the Federal Acquisition Regulation (FAR) had been completed. The
contract closeout checklist is shown in Table 1.




                                              26

                                      UNCLASSIFIED
                                                  UNCLASSIFIED


Table 1. Contract Closeout Checklist
                                CONTRACT CLOSEOUT CHECKLIST
      DEPARTMENT OF STATE CONTRACT NO.:     CONTRACTING ACTIVITY

               LAST MODIFICATION NO.

              LAST CALL OR ORDER NO.

         CONTRACTOR NAME AND ADDRESS:                         OTHER CLOSEOUT ACTIONS, IF REQUIRED                              N/




                                                                                                                   COMPLETED
                                                                                                                               A




     TOTAL AMOUNT OF EXCESS FUNDS, IF ANY:                   DISPOSITION OF CLASSIFIED MATERIAL
$
           FINAL PAYMENT HAS BEEN MADE                       PROPERTY CLEARANCE REPORT RECEIVED
 (THIS MAY BE IN THE FORM OF A PRINT OUT FROM
                     FMC)
COPY OF PRINT-OUT DATED:                                     SUBCONTRACTS SETTLED BY PRIME
                                                             CONTRACTOR
FINAL INVOICE NUMBER:                                        PRIOR YEAR INDIRECT COST RATES SETTLED
FINAL INVOICE DATE:                                          CONTRACTOR’S CLOSING STATEMENT
     CONTRACTOR RELEASE OF CLAIMS                            COMPLETE
DATE:                                                        CONTRACTOR’S FINAL INVOICE SUBMITTED
                  COR DOCUMENTS                              DEOBLIGATION OF EXCESS FUNDS
CONTRACTOR EVALUATION (PRINT OUT                             FOR CONSTRUCTION CONTRACTS
FROM CPARS)
NOTE: A copy of the performance evaluation should            PUNCH LISTS CORRECTED
remain in the contract files for future responsibility
and past performance determinations
DATE:                                                        ALL AS-BUILT DRAWINGS, SHOP DRAWINGS,
                                                             OPERATING MANUALS, PARTS LISTS, ETC.
                                                             SUBMITTED
COMPLETION CERTIFICATE                                       FINAL ACCEPTANCE LETTER ISSUED
DATE:                                                        ALL WARRANTIES AND GUARANTEES
                                                             SUBMITTED
FINAL PAYMENT AND CLOSEOUT OF CONTRACT               OTHER:
STATEMENT
DATE:
ALL CONTRACTUAL ACTIONS REQUIRED UNDER THIS CONTRACT HAVE BEEN COMPLETED.
CONTRACTING OFFICER                    DATE

Source: Overseas Contracting and Simplified Acquisition Guidebook, Exhibit 8-117, “Contract Closeout Checklist (Overseas).”




                                                            27

                                                  UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                                            Appendix D

Bureau of Administration, Office of Logistics Management,
     Office of Acquisitions Management, Response


                                                              Lnitrd Statrs Department of State

                                                               W03hinston . D.C. 20520

                                                               November 7. 2013

    UNCLASSJFIED
    MEMORANDUM

    TO:            OIG/AUD Norman P. Brown. Acting

    FROM:          AILM- Catherine I. Ehcrt-(iray     'f?Sl      fov
    SUBJECT:       Draft Report - Audit of the Contract Closeout Process for Contrncts Supporting
                   the U.S. Mission in Iraq

           Thank you for the opportunity to address the draft report concerning the contract closeout
    proce~s lor contracts supporting the U.S. Mission in Iraq. Mr. Ray Rouford is the point of
    contact on this response and he can be reached at (703) 875-5429.

    Recommendation I. OIG recQmmends that th~: Bureau of Administration update the Foreign
    Affairs Handbook to include detailed. comprehensive, and all indusiv~: guidance for performing
    an initial funds review and closing contracts. or provide referen~:e to where additional procedural
    guidance can be found. The gu idance should contain best practices as defmed by bodies such as
    the Office of Federal Procureme111 Policy.

    AILM/AQM response (ll/S/2013): The Office of Acquisitions Management (AQM) concurs
    with the recommendation. AQM looks forward to partici pating in efforts by policy otrices
    within the Bureau of Admini~tration to develop detailed, comprehensive, and all inclusive
    guidance for performing an initial fund~ review and closing contracts.

    Recommendation 8: OIG reconunends that the Bureau of Administration. Office of
    Logistics Manag..:ment. Ofllce of Acquisitions Management. develop an automated application
    to tr<1ck contract status upon award, to include esti mated and actual physical completion dates.
    and Federal Acquisi tion Regulation (FAR)-mandated timcfi-ames for closeout based on actual
    physical completion. The application ~hould include functionality to notify responsible officials
    of key contract dates, to include notifications to respon~ible ollicials when physically completed
    contracts arc approaching the F1\R·s mandated deadl ine.

    AILM/AQM response (11/5/2013): AQM concurs that the recommended automated
    appl ication would be helpful for monitoring due dates. I lowever. we must point Qut that
    development of the system requires extensive human and financial resources that will require a
    long lead time. AQM currently utilizes Momentum Acquisitions a~ our contract writing and
    adm inistration system and it has sever<!! of the suggested admin istrotive milestones built into it.
    Additional notification functions were postponed due to financial constraints. AQM will
    continue to work. within resources. with the solhvare developer and the integrator to provide the
    additiona l capabilities needed for a suitable notification system.



                                   SENSITIVE BUT UNCLASSIF IF.O




                                                    28

                                       UNCLASSIFIED
                                         UNCLASSIFIED


                                                                                                     Appendix E

Bureau of Administration, Office of the Procurement Executive, Response


                                                                     United States Department of State

                                                                     Washington, D .C. 20520




          November 7, 2013



          MEMORANDUM



          TO:           OIG/AUD-Norman P. Brown. Acting

          FROM:         A/OPE-Corey M. Rindner ~ ~                 R.,___,:,L....._._
          SUBJECT:      Draft Report on Audit ofthe Contract Closeout Process for Contracts Supporting
                        the U.S. Mission in Iraq



          Thank you for the opportunity to comment on the subject draft audit report. The point of contact
          for this report is Eric N. Moore.

          Specific comments on recommendations follow:

          Recommendation I. OIG recommends that the Bureau of Administration update the
          Foreign Affairs Handbook to include detailed, comprehensive. and all inclusive guidance for
          performing an initial funds review and closing contracts, or provide reference to where additional
          procedural guidance can be found. The guidance should contain best practices as defined by
          bodies such as the Office of Federal Procurement Policy.

          Response:

          OPE will update the Foreign Affairs Handbook to include additional guidance on performing an
          initial funds review and contract closure.


          Recommendation 2. OIG recommends that the Bureau of Administration, Office of the
          Procurement Executive, update the Department of State Acquisition Regulation to include
          detailed desktop procedures on how to perform an initial funds review.

          Response:

          OPE will update the DOSAR to refer to the updated FAH provisions.




                                                    29

                                         UNCLASSIFIED
                               UNCLASSIFIED




Recommendation 3. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, update the Department of State Acquisition Regulation to require that
the contracting officer identify the cognizant audit agency at contract award and begin
coordinating with that audit agency to help prevent large backlogs of pending or unscheduled
incurred cost rate audits.


Response:

OPE will update the DOSAR to require identification of the cognizant audit agency and early
coordination.


Recommendation 4. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, update the Department of State Acquisition Regulation to require
contracting officer to include Federal Acquisition Regulation Clause 52.216-7. Allowable Cost
and Payment, in all cost reimbursable contracts.

Response:

Federal Acquisition Regulation (FAR) 16.307(a) (1) already requires that the Contracting Officer
shall insert the clause 52.216- 7 Allowable Cost and Payment in solicitations and contracts when
a cost reimbursement contract is contemplated. The Department of State Acquisition Regulation
supplements FAR guidance, but does not repeat that same guidance.


Recommendation 5. OIG recommends that the Bureau of Administration. Office of the
Procurement Executive, revise the Department of State Acquisition Regulation to reflect the
interagency agreement between the Department of State and Defense Contract Audit
Agency fo r conducting incurred cost audits.

Response:

A/OPE will update the DOSAR.


Recommendation 6. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive. formally document and implement a process to periodically review
contract closeout guidance and tools. such as the Overseas Contract C loseout Checklist, for
accuracy and consistency with Federal and Department requirements.

Response:

A/OPE does not concur with the need for a process to separately review contract c loseout
guidance. A/OPE currently reviews the Overseas Simplified Acquisition (Cookbook) contract




                                        30

                                UNCLASSIFIED
                               UNCLASSIFIED




guidance, including the Overseas Contract Closeout Checklist, on a regular basis. We have
historically updated this information about every three years. The frequency of review is based
on resources and changes to processes and regulations.

The DOSAR is currently under revision and contract closure guidance will be part of that
revision. DOSAR changes require publication in the Federal Register and reconciliation of
comments received. The DOSAR is updated as dictated by changes to rules and requirements.

The Directives office requires periodic review of existing F AM and FAH guidance.

Recommendation 7. OIG recommends that the Bureau of Administration. Office of the
Procurement Executive, develop a detailed and consolidated guidebook that contains contract
closeout procedures for use by contracting officers located domestically and overseas. The
guidebook should have individual chapters addressing specific risks faced by contracting
officials based on geographic location.

Response:

OPE will update contract closure guidance to include more detailed information on initial funds
review and closure. OPE believes the format ofthat guidance (FAH change, DOSAR change,
handbook) and structure (separate chapters versus consolidated guidance) should be left to the
discretion of the policy office.


Recommendation 8. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, develop an automated application
to track contract status upon award, to include estimated and actual physical completion dates,
and Federal Acquisition Regulation (FAR)-mandated timeframes for closeout based on actual
physical completion. The application should include functionality to notify responsible offidals
of key contract dates, to include notifications to responsible officials when physically completed
contracts are approaching the FAR's mandated deadline.

Response:

NLM/AQM will respond.


Recommendation 9. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive. in conjunction with the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, develop and implement an e-Filing
policy and document management system to provide effective contract file inventory control and
doctunentation standards, while allowing for ready accessibility through a central locator system.
The policy should include minimum guidance over the completeness of data contained in the
files and a schedule of milestones identifying mandatory implementation dates.




                                        31

                               UNCLASSIFIED
                              UNCLASSIFIED




Response:

There are two different filing enviromnents, domestic (A/LM/AQM) and overseas posts. The
Bureau of Administration, Office of Logistics Management (NLM) and the Office of the
Procurement Executive (A/OPE) are engaged in a pilot program to evaluate the feasibility of
creating electronic files for overseas posts. Contents of electronic files must be the same as
hardcopy files required by the Federal Acquisition Regulation (FAR). A/LM/PMP is the lead
organization for implementing an electronic filing (eFiling) solution for overseas posts
leveraging the Integrated Logistics Management System (ILMS). eFiling supports the
Department's Green Initiatives through the option of paperless processing using new electronic
procurement checklists. Currently in pilot deployment at select overseas sites, the eFiling
capability is built upon ILMS Document Management which is a centralized repository for key
supply chain documents. Within Document Management users can access not only a copy of the
award/order, but also Despatch Agency shipping information and copies of post Receiving
Reports. Document Management provides post the ability to upload additional attachments such
as invoices which provides post with one centralized location to store pertinent documents.
Ultimately the ILMS eFiling solution will provide a better linkage between the procurement
system and Document Management to facilitate elimination of hard copy files. The new eFiling
capability will be ready for worldwide deployment once a thorough evaluation of the pilot is
completed and enhancements have been implemented. Implementation of electronic filing will
be dependent on the success of pilot programs and the adequacy of funding and other resources
to implement new worldwide systems and monitor their implementation.

Domestically, the Office of Acquisitions Management (A/LM/AQM) agrees that an e-filing
system is desirable. A/LM/AQM will examine the feasibility of acquiring and implementing a
system within the constraints of human and financial resources. In the interim, AILM/ AQM will
emphasize the importance of maintaining adequate contract files and documentation, will
increase the use of scanned records, and will increase controls over contract files.




                                       32

                               UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
